Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

81975
STATE OF NEW YORK,
AFFIDAVIT OF SERVICE

SS:
COUNTY OF NEW YORK

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 10th day of February 2020 deponent served 3 copies of the within
BRIEF AMICI CURIAEOF THE AMERICAN CIVIL LIBERTIES UNION, THE ACLU OF SOUTHERN
CALIFORNIA, AMERICANS UNITED FOR SEPARATION OF CHURCH AND STATE, AND THE ADL
(ANTI-DEFAMATION LEAGUE) IN SUPPORT OF NEITHER PARTY

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Jennifer Anne Lipski
JML Law, A Professional Law Corporation
5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367
818-610-8800
jennifer@jmllaw.com

Eric Christopher Rassbach
The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, NW
Suite 700
Washington, DC 20036
202-955-0095
erassbach@becketlaw.org

Counsel for Respondents
Counsel for Petitioners

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on February 10, 2020, pursuant to Supreme
Court Rule 29.5(c]. All parties required to be
~

~e;:;xrve~

Howard Daniels

Sworn to me this

February 10, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County

Notary Public

Case Name: Biel & Morrissey-Berru cases

i

Docket/Case Nos. 19-267 & 19-348

